HHS/OIG, Audit - "Review of Pension Costs Claimed for Medicare
Reimbursement by Blue Cross Blue Shield of Georgia for Fiscal Years 1994 Through
2000," (A-07-07-00238)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Pension Costs
Claimed for Medicare Reimbursement by Blue Cross Blue Shield of
Georgia for Fiscal Years 1994 Through 2000," (A-07-07-00238)
November 16, 2007
Complete Text of Report is available in PDF format (697 kb).
Copies can also be obtained by contacting the Office of Public Affairs at
202-619-1343.
EXECUTIVE SUMMARY:
The objective of our review was to determine the
allowability of pension costs that Blue Cross Blue Shield of Georgia (Georgia)
claimed for Medicare reimbursement for fiscal years (FY) 1994 through 2000.
Georgia did not claim $25,889 of allowable pension costs for FYs 1994 through
2000 due to incorrect computations of CAS pension costs.  Georgia claimed
$1,012,072 of pension costs for Medicare reimbursement; however, allowable
Medicare pension costs were $1,037,961.
We recommended that Georgia revise its Final Administrative
Cost Proposals to increase claimed pension costs by $25,889.  We also
recommended that Georgia claim future pension costs in accordance with Federal
requirements and its Medicare contract.  Georgia concurred with our
recommendations.